No. _ _ _ _ __

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

ROBERT L. ROSE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify and declare that true and exact copies of the Petition for Writ of Certiorari
to the United States Court of Appeals of the Ninth Circuit and Motion for Leave to Proceed in
Forma Pauperis were mailed, first-class postage prepaid, this 16th day of September, 2020, to all
parties required to be served as follows: Solicitor General, Department of Justice, Washington,
D.C., 20530; Mr. C. Mark Fowler, Assistant Attorney General, and Ms. Tammy K. Plubell,
Assistant Attorney General, Montana Department of Just' e, P.O. Box 201401, Helena, MT
59620-1440; and Mr. Robert L. Rose, ID #38060, Mont a State Prison, 700 Conley Lake Road,
Deer Lodge, MT 59722.

NTHONY R. GALLAGHER
Federal D~fender for the District of Montana
*DAVID F. NESS, Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner

